No. ________
OCTOBER TERM, 2020
IN THE SUPREME COURT OF THE UNITED STATES
JAMES WALKER, Petitioner,
v.
WILLIAM GITTERE, Warden, et al., Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of the State of Nevada
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
CAPITAL CASE

RENE L. VALLADARES
Federal Public of Nevada
JOANNE L. DIAMOND*
MARTIN L. NOVILLO
*Counsel of record
Assistant Federal Public Defender
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)

Pursuant to Supreme Court Rule 39.1, Petitioner James Walker
requests leave to file the attached Petition for Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis. On April 5, 2016,
undersigned counsel’s office was appointed to represent Walker by the state
court in the instant state habeas proceeding, Case No. 03C196420-1. See Ex.
1.
Dated this 16th day of November, 2020.
Respectfully submitted,

/s/ Joanne L. Diamond

JOANNE L. DIAMOND
Assistant Federal Public Defender

2

